CASE NO.
IN THE SUPREME COURT OF THE UNITED STATES

In Re:
TYLER BOWYER, MICHAEL JOHN BURKE, NANCY COTTLE, JAKE
HOFFMAN, ANTHONY KERN, CHRISTOPHER M. KING, JAMES R.
LAMON, SAM MOORHEAD, ROBERT MONTGOMERY, LORAINE
PELLEGRINO, GREG SAFSTEN, SALVATORE LUKE SCARMARDO,
KELLI WARD AND MICHAEL WARD,
Petitioners,
v.
DOUG DUCEY, in his official capacity as Governor of the State of Arizona,
and KATIE HOBBS, in her capacity as Secretary of State of the State of
Arizona,
Respondents.
PROOF OF SERVICE
Howard Kleinhendler affirms, deposes and states that on the 24th day of
December 2020, he did cause to be served the following:
1. EMERGENCY PETITION UNDER RULE 20 FOR EXTRAORDINARY
WRIT OF MANDAMUS;
2. Appendix
3. Certificate of Compliance
4. Proof of Service
UPON:
1

Colin Ahler
Snell & Wilmer LLP
1 Arizona Center
400 E Van Buren
Phoenix, AZ 85004-2202
cahler@swlaw.com
Joseph James Branco
Maricopa County Attorney Civil Services Division
225 W. Madison St.
Phoenix, AZ 85003
brancoj@mcaso.maricopa.gov
Davida Brook
Susman Godfrey LLP
1901 Avenue of the Stars, Ste.
950 Los Angeles, CA 90067
dbrook@susmangodfrey.com
Emily Mae Craiger
Maricopa County Attorney Civil Services Division
225 W. Madison St.
Phoenix, AZ 85003
craigere@mcao.maricopa.gov
Roopali Desai
Coppersmith Brockelman PLC
2800 N. Central Ave., Ste. 1900
Phoenix, AZ 85004
rdesai@cblawyers.com
Derek Conor Flint
Snell & Wilmer LLP
1 Arizona Center
400 E Van Buren
Phoenix, AZ 85004-2202
dflint@swlaw.com
Anni Lori Foster
Office of the Governor
1700 W. Washington St.
Phoenix, AZ 85007
2

afoster@az.gov
David Andrew Gaona
Coppersmith Brockelman PLC
2800 N. Central Ave., Ste. 1900
Phoenix, AZ 85004
Agaona@cblawyers.com
Elizabeth B. Hadaway
Susman Godfrey LLP
1000 Louisiana, Ste. 5100
Houston, TX 77002
ehadaway@susmangodfrey.com
Julia Zuszua Haller
Defending the Republic
South Bldg.
601 Pennsylvania Ave. NW, Ste. 900
Washington, DC 20004
hallerjulia@outlook.com
Brandon Johnson
Sidney Powell PC
2911 Turtle Creek Blvd., Ste. 300
Dallas, TX 75219
Brandoncjohnson6@aol.com
Brett William Johnson
Snell & Wilmer LLP
1 Arizona Center
400 E Van Buren Phoenix, AZ
85004-2202 bwjohnson@swlaw.com
Ian R. Joyce
Snell & Wilmer LLP
1 Arizona Center
400 E Van Buren
Phoenix, AZ 85004-2202
ijoyce@swlaw.com
Howard Kleinhendler
Howard Kleinhendler Esq.
369 Lexington Ave., 12th Fl.
3

New York, NY 10017
howard@kleinhendler.com
Alexander Michael Kolodin
Kolodin Law Group PLLC
3443 N. Central Ave., Ste. 1009
Phoenix, AZ 85012
alexander.kolodin@kolodinlaw.com
Joseph Eugene LaRue
Maricopa County Attorneys Office – Phoenix
222 N. Central Ave., Ste. 1100
Phoenix, AZ 85004-2206
laruej@mcao.maricopa.gov
Thomas P. Liddy
Maricopa County Attorneys Office – Civil Services Division
222 N. Central Ave., Ste. 1100
Phoenix, AZ 85004-2206
liddyt@mcao.maricopa.gov
Stephen Edward Morrissey
Susman Godfrey LLP
1201 3rd Ave., Ste. 3800
Seattle, WA 98101
smorrissey@susmangodfrey.com
Justin A. Nelson
Susman Godfrey LLP
1000 Louisiana, Ste. 5100
Houston, TX 77002
jnelson@susmangodfrey.com
Emily P. Newman
Sidney Powell PC
2911 Turtle Creek Blvd., Ste. 300
Dallas, TX 75219
enewman@protonmail.com
Sidney Katherine Powell
Sidney Powell PC
2911 Turtle Creek Blvd., Ste. 300
Dallas, TX 75219
4

sidney@federalappeals.com
Stephen Lee Shackelford, Jr.
Susman Godfrey LLP
1301 Avenue of the Americas, 32nd Fl.
New York, NY 10019
sshackelford@susmangodfrey.com
Joseph I. Vigil
Maricopa County Attorney Services Division
225 W Madison St.
Phoenix, AZ 85003
vigilj@mcao.maricopa.gov
Christopher Alfredo Viskovic
Kolodin Law Group PLLC
3443 N. Central Ave., Ste. 1009
Phoenix, AZ 85012
cviskovic@kolodinlaw.com
L. Lin Wood
Wood Hernacki & Evans LLC
1180 W. Peachtree St., Ste. 2400
Atlanta, GA 30309
lwood@linwoodlaw.com
Kristen Michelle Yost
Coppersmith Brockelman PLC
2800 N. Central Ave., Ste. 1900
Phoenix, AZ 85004
kyost@cblawyers.com
By email and by placing said copies in a properly addressed envelope
with sufficient postage fully prepaid, and placing in a U.S. Mail
Receptacle.
FURTHER AFFIANT SAYETH NOT.
/s/Howard Kleinhendler
HOWARD KLEINHENDLER
5

